             Peace Corps
             Office of Inspector General




PC/Mozambique office in Maputo                Local villagers in northern Mozambique




                                 Flag of Mozambique




                         Final Audit Report:
                      Peace Corps/Mozambique
                             IG-11-05-A
                                                                  March 2011
                                   EXECUTIVE SUMMARY

The Office of Inspector General (OIG) found that Peace Corps/Mozambique’s financial and
administrative operations and its compliance with agency policies and federal regulations
required improvement in several key areas. The following are some of the more important
findings:

Imprest Fund Management
Staff did not settle their interim cash advances within three working days of issuance. In
addition, the combination to the imprest fund safe was set by the U.S. Embassy Pretoria’s
engineering support liaison rather than the cashier. Further, the alternate cashier’s safe used a
padlock instead of the required three-tumbler combination lock.

Volunteer Allowances
A market basket survey was not performed in connection with the 2009 Volunteer living
allowance survey.

Property Management
The general services assistant (GSA) maintained the property inventory database and also
performed the physical inventory verification. In addition, required periodic reconciliations were
not performed and we found numerous discrepancies in the database.

Vehicles Management
During the fiscal years 2008, 2009, and 2010 through May 31, 2010, only the GSA initialed the
logs. Weekly reviews by the staff members initiating vehicle repairs; billing for authorized, non-
official use; and maintaining the vehicle maintenance records are required.

Personnel Management and Personal Services Contract
Security background certifications or updates were not on file for 15 of 28 personal services
contractors (PSCs) and intelligence background certifications had not been obtained from staff.
Further, some staff were not evaluated in 2009, and others were not evaluated for both 2008 and
2009. Also, compensatory time was not always recorded.

Medical Supplies
The medical unit did not use the required dispensed inventory form and did not provide
dispensed drug information to the medical supplies inventory control (MSIC) clerk to update the
inventory log. We found discrepancies in 13 of the 20 medical supplies tested.

Our report contains 24 recommendations, which, if implemented, should strengthen internal
controls and correct the deficiencies detailed in the accompanying report.




Final Audit Report: Peace Corps/Mozambique                                                          i
                                                      TABLE OF CONTENTS

EXECUTIVE SUMMARY .................................................................................................................... I

TABLE OF CONTENTS ......................................................................................................................1

BACKGROUND ..................................................................................................................................1

AUDIT RESULTS ...............................................................................................................................1
     IMPREST FUND MANAGEMENT ................................................................................................................................ 1

     VOLUNTEER ALLOWANCES .....................................................................................................................................3

     PROPERTY MANAGEMENT .......................................................................................................................................4

     VEHICLES MANAGEMENT .......................................................................................................................................5

     PERSONNEL MANAGEMENT AND PERSONAL SERVICES CONTRACTS ......................................................................7

     TRAVEL MANAGEMENT ..........................................................................................................................................9

     MEDICAL SUPPLIES .................................................................................................................................................9


QUESTIONED COSTS AND FUNDS TO BE PUT TO BETTER USE .....................................................12

LIST OF RECOMMENDATIONS .......................................................................................................13

APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY.............................................................15

APPENDIX B: LIST OF ACRONYMS ................................................................................................16

APPENDIX C: MANAGEMENT’S RESPONSE TO THE PRELIMINARY REPORT ...............................17


APPENDIX D: OIG COMMENTS.....................................................................................................28

APPENDIX E: AUDIT COMPLETION AND OIG CONTACT .............................................................29
                                             BACKGROUND
The Peace Corps commenced its program in Mozambique in 1998 with the arrival of the first
group of 24 trainees. At the time of our visit, 125 Volunteers were engaged in two project
sectors: education and health – HIV/AIDS. The country director (CD) arrived at the post in May
2009, and the administrative officer (AO)1 arrived in March 2008.

Our overall objective in auditing overseas posts is to determine whether the financial and
administrative operations were functioning effectively and complied with Peace Corps policies
and federal regulations during the period under audit. Appendix B provides a full description of
our audit objective, scope, and methodology.


                                           AUDIT RESULTS

IMPREST FUND MANAGEMENT

The cashier did not set the combination to the imprest fund safe, and the alternate cashier’s
safe used a padlock rather than a three-tumbler combination lock.

Peace Corps Manual Series (MS) 760.5.2 states: “The cashier must personally set the
combination to the safe. The Embassy Regional Security Officer (RSO) or technician assisting
with the changing of the combination is not authorized to set or know the combination to the
safe…. The combination should be changed at least annually, whenever, there is a change in
cashiers, or whenever the combination becomes known to a person other than the cashier.”

MS 760.5.0 states: “Imprest funds must be stored in a U.S. government approved safe,
preferably a cashier’s or money safe, with a three-tumbler combination lock.”

The imprest fund safe’s combination was set by the embassy’s engineering security liaison
(ESL) from Pretoria, South Africa, rather than the cashier. The ESL’s last visit to the post was
May 2009. The cashier told us that she had not been trained how to set the combination. The
RSO stated that he would ask the ESL to train the cashier on his next visit.

In addition, the alternate cashier’s safe, which was used to hold the imprest fund upon its transfer
from the cashier, used a padlock rather than the required three-tumbler lock. The RSO told us he
would ask the ESL to examine the safe to see if a three-tumbler lock could be added.

                  We recommend:

                  1. That the cashier be trained on how to set the combination
                     to the imprest fund safe.
1
  Subsequent to issuance of the preliminary report, Peace Corps updated the administrative officer’s working title to
the director of management and operations.


Final Audit Report: Peace Corps/Mozambique                                                                          1
                 2. That the cashier change the combination at least annually.

                 3. That the alternate cashier’s safe use a three-tumbler lock
                    rather than a padlock if the safe is to be used to hold the
                    post’s imprest fund.


Staff did not clear their interim cash advances in a timely manner.

The Overseas Financial Management Handbook (OFMH) section 13.18.2 requires that interim
cash advances be “liquidated (accounted for) within three (3) working days.” The policy further
states: “It is the responsibility of the cashier to monitor the clearance of interim advances and to
notify the Administrative Officer if advances are not cleared within 3 days for direct follow-up
action.”

We found that interim advances were not consistently cleared in a timely manner. Ten of the 20
(50%) monthly imprest fund reconciliations between October 2008 and May 2010 showed
delinquent interim cash advances. One month’s accompanying Monthly Checklist for Verifying
Officer incorrectly stated, “Yes,” to the question whether interim cash advances were being
liquidated timely. Several other Checklists stated that the benchmark was five, instead of the
correct three working days.

The education program assistant/office manager in the regional office in Nampula in northern
Mozambique has used a rolling advance of 25,000 meticais (about $715) to pay for office,
vehicle, utilities, and other expenses. Due to distance and communications complexities in the
country, he had not cleared his interim advance within three working days. The AO requested
the headquarters cashier liaison’s assistance in finding a solution. The cashier liaison, in turn,
has contacted the U.S. depository officer for advice and guidance.

Further, the GSA held a recurring interim cash advance of 10,000 meticais (about $286) for a
number of years. An analysis prepared for us by the cashier showed that this advance was used
sporadically and rarely in the amount of the advance. The AO confirmed to us that she had
eliminated the GSA’s advance.

Clearing interim advances in a timely manner ensures a prompt return of unused funds and a
prompt accounting for funds used.

                 We recommend:

                 4. That post staff clear their interim cash advances within
                    three working days and that the administrative officer
                    remind staff of this requirement.

                 5. That the cashier monitor interim advances and notify the
                    administrative officer of advances that have not been
                    cleared within three working days.



Final Audit Report: Peace Corps/Mozambique                                                           2
                 6. That the administrative officer follow up delinquent
                    outstanding interim advances brought to her attention by
                    the cashier.

                 7. That the imprest fund verifying officer report uncleared
                    interim cash advances on the Monthly Checklist for
                    Verifying Officer.

                 8. That the cashier liaison, in consultation with the U.S.
                    depository officer and the Office of General Counsel,
                    determine a solution to permit the proper clearing of
                    interim cash advances by the post’s regional office.


VOLUNTEER ALLOWANCES

The post did not conduct a living allowance market basket survey in 2009.

At the conclusion of pre-service training, newly sworn-in Volunteers are given a settling-in
allowance to provide for their needs when arriving at their sites. MS 221.3.1 states that the
allowance is for the purchase of “necessary housing supplies and equipment.”

In addition, MS 221.5.1 states that “Volunteers are entitled to a living allowance in order that
they may serve effectively and safely overseas.” Living allowance surveys are the principal
means by which a post verifies that the allowance is adequate and, if not, determines an
appropriate adjustment. Properly performed surveys are critical to ensure that the allowance
reflects the current living needs of the Volunteers.

According to MS 221.5.7.2, “To verify living allowance survey submissions, a Market Basket
Survey shall be conducted by staff….The market basket survey is to be used as a guide to
validate the cost data on the living allowance survey submissions.” MS 221.5.7.3 states:
“Increases or decreases to the base living allowance must be based on the findings of the
Volunteer living allowance survey, as supported by the market basket survey….”

The post did not perform a market basket survey in connection with its 2009 Volunteer living
allowance survey. The financial management specialist told us this was an oversight. A market
basket survey was performed in connection with the 2008 living allowance survey.

Volunteers rely upon the post to provide them with adequate allowances, which are mandated by
Section 2504 of the Peace Corps Act. Complete living and settling-in allowance surveys help
ensure that the related allowances are adequate.

                 We recommend:

                 9.    That the post conduct a market basket survey in
                       connection with its Volunteer living allowance survey.


Final Audit Report: Peace Corps/Mozambique                                                         3
PROPERTY MANAGEMENT

The post’s internal controls and procedures over property inventory, and its compliance with
policy, were weak.

“Standards for Internal Control in the Federal Government” (GAO/AIMD-00-21.3.1) issued by
the Government Accountability Office (hereafter, GAO Standards) state, “An agency must
establish physical control to secure and safeguard vulnerable assets.... Such assets should be
periodically counted and compared to control records.” The GAO Standards assert that
“…control activities help to ensure that all transactions are completely and accurately recorded.”

The GAO Standards also require the separation of incompatible duties. They state, “Key duties
and responsibilities need to be divided and segregated among different people to reduce the risk
of error or fraud.”

MS 511.5.5 states, “Before beginning inventory, the Property Officer should check the property
management records against written documentation of property/equipment changes to ensure that
all changes have been entered in the property management database.” MS 511.6.1 requires that
“the Administrative Officer reconcile the inventory against receiving reports and requisition
forms at least once a quarter.”

MS 511.6.2.2 states, “Custody receipts are used for longer term issue, or when releasing non-
expendable property to Volunteers, staff or contractors to use away from the Peace Corps
office…. Each PO [property officer] must maintain a separate suspense file of outstanding
custody receipts, kept in alphabetical order by name of the person the property is assigned to.”

The post’s internal controls and its compliance with policy were inadequate, as follows:

            The GSA maintained the property inventory database and also performed the physical
            inventory verification, violating the internal control requirement to segregate these
            responsibilities.

            The property officer did not reconcile the property management database with written
            documentation of changes before beginning the inventory, to make certain that the
            changes were recorded.

            The AO did not reconcile the inventory against receiving reports and requisition
            forms at least once a quarter.

            The property officer did not obtain custody receipts for Peace Corps property
            maintained in the residences of the U.S. direct hire staff.

In addition, of the 65 inventory items selected for testing, we found 19 discrepancies. They
included post property that was not recorded, recorded property that was not able to be found,
property listed as disposed that was in use and vice versa, and incorrect locations noted in the
database for some property. We also noted property with no tag or with two tags. The number


Final Audit Report: Peace Corps/Mozambique                                                         4
of discrepancies raised concerns about the completeness and conscientious performance by the
GSA of the physical inventory in April – May 2010, about a month before the audit. Unrecorded
assets represent a serious condition because these assets are particularly vulnerable to theft, loss,
or misuse.

Adequate and properly implemented internal controls and procedures, and adherence to policy
requirements, are essential for effective accountability and oversight over post property. Control
procedures such as maintaining an accurate and complete property inventory database, updating
it for changes on an ongoing basis, performing periodic reconciliations during the year, and
conducting careful and complete physical inventory verifications and investigating discrepancies,
are important steps in protecting the property from waste, fraud, and abuse.

The above deficiencies made the post’s property vulnerable to loss. Without appropriate controls
in place, including segregation of duties and periodic reconciliations, and without accurate and
reliable inventory data, property could well be lost or stolen, and the situation not identified. The
resulting property loss would have an adverse financial impact on the agency.

                 We recommend:

                 10.   That the post conduct a review of invoices for the last two
                       years to ensure that all acquired post property has been
                       recorded and update the property inventory database as
                       required, verify that all property has one tag, and
                       conduct a complete physical inventory.

                 11.   That the administrative officer reconcile the inventory
                       against receiving reports and requisition forms at least
                       quarterly, and that the property officer reconcile the
                       property inventory database with written documentation
                       of changes before the physical inventory is conducted.

                 12.   That the property officer obtain custody receipts from the
                       U.S. direct hire staff holding Peace Corps property in
                       their residences.


VEHICLES MANAGEMENT

Management oversight over vehicle usage was deficient.

Vehicles represent the agency’s single most significant owned assets at a post, and their
utilization and maintenance are major post costs. The importance of the agency’s vehicle
investment and the opportunity for waste or abuse make oversight by post management essential.
In recognition of the importance of ongoing oversight, agency policies have been established
requiring regular, periodic reviews by post management of vehicle usage, primarily by
scrutinizing the post’s vehicle usage logs and investigating unusual or questionable items.


Final Audit Report: Peace Corps/Mozambique                                                          5
MS 527.6.1 states, “Each week, the log should be reviewed, initialed, and dated by the staff
members responsible for: initiating vehicle repairs; billing for authorized, non-official use; and
maintaining the vehicle maintenance record….”

We found that management oversight of vehicle usage was not in compliance with Peace Corps
requirements. During the fiscal years 2008, 2009, and 2010 through the time of the audit, only
the GSA initialed the vehicle usage logs. However, the logs were not dated as required, raising a
question about the timeliness of the GSA’s review.

Review of the post’s vehicle usage logs is an important internal control procedure to ensure that
the post’s vehicles are being used appropriately and personal use is reimbursed.

                 We recommend:

                 13.   That the required staff members review, initial, and date
                       the vehicle usage logs weekly and investigate unusual or
                       questionable postings.


The post did not maintain vehicle maintenance records.

MS 527.6.1 states: “A maintenance record (see Attachment C) must be prepared for each
vehicle and updated whenever maintenance is performed or maintenance expenses are reported.”

The GSA did not keep maintenance records for the vehicles. These records are particularly
important in Mozambique because the vehicles are subjected to substantial usage and wear over
rough terrain, and repairs and maintenance are performed in multiple locations, at the post and at
a Toyota dealership in a nearby town in South Africa. For these reasons effective ongoing
monitoring and control over maintenance (both warranty and specialized) are essential.
Maintenance records also permit the AO to exercise appropriate oversight.


                 We recommend:

                 14.   That the post set up and keep maintenance records for
                       the Peace Corps vehicles and that the records be reviewed
                       periodically by the administrative officer.




Final Audit Report: Peace Corps/Mozambique                                                           6
PERSONNEL MANAGEMENT AND PERSONAL SERVICES CONTRACTS

The post’s personnel files were incomplete.

MS 743.8.2 states, “For all host country PSCs contracted for 260 work days or more, the Country
Director must ask the Regional Security Officer (RSO) or his or her designee to conduct a
background investigation…of the proposed PSC prior to executing the contract.” In addition,
“The CD must request re-certification of a continuously employed PSC every five years….
Documentation will be filed in the individual PSC’s contract file at post.”

MS 743.8.4 states: “Prospective PSCs are required to complete the Intelligence Background form
provided as Attachment A to Manual Section 611, in addition to being certified through the
appropriate security clearance process.”

MS 743.19.0 states: “It is U.S. Government policy that a PSC’s performance be evaluated
during and at the completion of each contract…. All PSCs will be evaluated by the Country
Director, or another Peace Corps employee designated by the Country Director….” OFMH
section 3.1 requires that the CD ensure that staff are evaluated.

Security background certifications or updates were missing for many staff. The safety and
security coordinator prepared a control listing of certification status during the audit showing that
15 of 28 PSCs did not have current and valid security certifications or updates on file. Eight
PSCs had no security certifications on file, five PSCs had only temporary certifications on file,
and two PSCs required updates as five years had lapsed since the previous certification. The
RSO acknowledged that his office needed to complete and provide the missing certifications to
the post. Further, intelligence background certification forms were not on file for staff. The AO
thought that these were part of the security certification.

In addition, a number of staff who report to the CD and AO were not evaluated in 2009. Further,
some staff, including the general services assistant and the drivers, were not evaluated in both
2009 and 2008. Some staff completed the self-evaluation part of the appraisal, but their
supervisors did not complete their section of the form. Also, a few staff told us that performance
discussions with their supervisors had not occurred and that the staff did not receive copies of
their appraisals. We noted one completed evaluation form in the personnel files that had not
been signed by the staff member or the supervisor. Further, the files did not contain appraisals of
the Peace Corps medical officer (PCMO) and part-time PCMO for 2008 and 2009. The PCMO
told us that she had copies of her appraisal.

Evaluations provide feedback to staff and create the opportunity for a dialogue regarding past
performance, future expectations, and career goals.




Final Audit Report: Peace Corps/Mozambique                                                         7
                 We recommend:

                 15.   That the country director ensure that the post has
                       security background certifications or updates on file for
                       all staff and, on an ongoing basis, ensure that the
                       required security background investigation is conducted
                       prior to executing the personal services contract.

                 16.   That the administrative officer obtain intelligence
                       background certifications from all personal services
                       contractors and place these in their contract files.

                 17.   That the country director ensure that all staff are
                       evaluated, that copies of the performance appraisals are
                       given to staff members, and that the originals are placed
                       in the personal services contractors’ files.


The post’s time and attendance records were incomplete.

MS 742.6.1 and 630.4.6 provide guidance in proper time and attendance procedure. Further, the
GAO Standards require “accurate and timely recording of transactions and events” and state that
“control activities help to ensure that all transactions are completely and accurately recorded.”

The post provided compensatory time to staff for extra hours worked. However, for some staff,
including the drivers, the post did not maintain records for compensatory time. Their timesheets
did not reflect the extra hours worked that earned compensatory time. Further, the official time
and attendance records, maintained on Form PC-57, did not always reflect compensatory time
taken as leave. Proper internal control over time and attendance requires a complete accounting
for all time including compensatory time.

In addition, the official time and attendance records were not reviewed by supervisors. Form
PC-57 has a place on the form to document such review. These records are important documents
for such information as hours worked and leave, and should be reviewed periodically by
supervisors.

                 We recommend:

                 18.   That the staff record compensatory time on timesheets
                       and that the timekeeper reflect compensatory time in the
                       official time and attendance records.

                 19.   That supervisors periodically review their staff’s official
                       time and attendance records and document the reviews




Final Audit Report: Peace Corps/Mozambique                                                      8
TRAVEL MANAGEMENT

The post’s international travel vouchers contained discrepancies.

MS 812 provides policy and guidance on the proper completion of travel vouchers. We noted
discrepancies in the post’s international travel vouchers. Two of the five travel vouchers we
reviewed had incorrect per diem rates. Further, one travel voucher was submitted late, and
another did not contain the date submitted by the traveler.

                 We recommend:

                 20.   That the country director instruct post management staff
                       to exercise care in performing reviews of travel vouchers,
                       and that the administrative officer conduct a training for
                       all post staff on proper completion of travel vouchers.


MEDICAL SUPPLIES

The post did not fully implement the agency’s medical supplies inventory policy.

MS 734 specifies the post’s requirements relating to medical supplies inventory. The policy was
revised in November 2008 to strengthen internal controls and procedures over medical supplies.

MS 734.3.5 delineates overall control objectives and responsible parties. It states: “The CD and
PCMO [Peace Corps Medical Officer] share the responsibility to maintain effective control over
medical supplies…. Assurance that effective controls are in place is achieved through
maintaining appropriate segregation of duties, accurate record keeping, secure storage, and
periodic inventories.”

MS 734.3.5.3 (a) states: “The MSIC [Medical Supply Inventory Control] Clerk must maintain
an accurate and complete set of inventory records for all medical supply items that are specially
designated or controlled substances (Medical Inventory Control Log).”

In addition, MS 734.3.5.3 (c) states: “Annually, the Medical Inventory Control Log must be
signed by the CD and be submitted to OMS [Office of Medical Services] for review. The annual
requirement for CD sign-off of the inventory of specially designated medical supplies and
controlled substances will assess inventory on hand as of March 31 and is due to OMS by April
15 each year.”

 “Peace Corps’ Plan to Reduce Use of Personally Identifiable Information and Social Security
Numbers,” dated September 7, 2007, states: “Peace Corps’ policy is to eliminate the
unnecessary collection and use of SSNs [Social Security Numbers].” Further: “In almost all
cases, the Volunteer Identification Number could take the place of the SSN for Volunteers.
There are only a few instances where SSNs are required, and none of these is overseas.”




Final Audit Report: Peace Corps/Mozambique                                                          9
The post did not begin implementing the agency’s medical supplies policy, issued in November
2008, until May 2010. An inventory of medical supplies was taken at that time and a medical
inventory control log was established under the control of the designated medical supplies
inventory clerk. However, the log did not have columns for receipt and dispensing, only
inventory and adjusted inventory columns. Further, the log did not include controlled substances
or refrigerated vaccines.

Moreover, information on drugs dispensed to Volunteers was not provided by the medical unit to
the MSIC clerk using the form in the policy. We found discrepancies between quantities in the
log and on the medical unit shelves, resulting principally from dispensings that were not
recorded in the log.

In addition, the country director did not submit the medical inventory control log to OMS as
required. The submission, which reflects the inventories as of March 31, is due April 15 of each
year. The log is an important tool in OMS’ review and oversight over post drugs.

Finally, specimens sent to local labs and to the Centers for Disease Control in the United States
had the Volunteers’ complete SSN. The medical unit was using labels that were sent to it by
OMS containing Volunteers’ SSNs. OMS informed us that they were deleting the Volunteers’
SSNs from the labels.

Accurate and complete inventory records and timely reporting to OMS are important in order to
control medical supplies. Effective internal controls and procedures are required to prevent theft,
loss, or abuse of the post’s medical supplies inventory.

                 We recommend:

                 21.   That the medical unit provide the medical supplies
                       inventory control clerk with information on dispensings
                       to Volunteers and that the medical supplies inventory
                       control clerk expand the control log to include receipts
                       and dispensings and update the log at least monthly.

                 22.   That the country director submit the log to the Office of
                       Medical Services annually as required.

                 23.   That the medical unit ensure that specimens not include
                       the Volunteers’ Social Security numbers.


Discrepances existed between the medical supplies inventory and the related records.

MS 734.3.5 states: “Assurance that effective controls are in place is achieved through…accurate
record keeping ….”




Final Audit Report: Peace Corps/Mozambique                                                      10
The post did not keep current, accurate, and complete medical inventory records. Of the 20
items we selected for review, 13 contained discrepancies between the medical supplies on hand
and the post’s records. The discrepancies were principally due to the non-recording in the MSIC
clerk’s log of drugs dispensed to Volunteers.

Accuracy in the recording of medical supplies and timeliness in the updating of the inventory
records are essential in detecting and preventing waste, fraud, and abuse. Further, the reliability
of medical inventory information is critical in making correct and cost-effective inventory
ordering decisions and ensuring that the medical unit has the appropriate items and quantities of
medical supplies on hand to effectively treat Volunteers.

                 We recommend:

                 24.   That the post conduct a complete physical inventory of
                       medical supplies in accordance with agency policy and
                       update the inventory records accordingly.




Final Audit Report: Peace Corps/Mozambique                                                        11
                            QUESTIONED COSTS AND
                         FUNDS TO BE PUT TO BETTER USE

We did not identify any questioned costs or funds to be put to better use during the course of the
audit.




Final Audit Report: Peace Corps/Mozambique                                                      12
                             LIST OF RECOMMENDATIONS

We recommend:

        1. That the cashier be trained on how to set the combination to the imprest fund safe.

        2. That the cashier change the combination at least annually.

        3. That the alternate cashier’s safe use a three-tumbler lock rather than a padlock if the
           safe is to be used to hold the post’s imprest fund.

        4. That post staff clear their interim cash advances within three working days and that
           the administrative officer remind staff of this requirement.

        5. That the cashier monitor interim advances and notify the administrative officer of
           advances that have not been cleared within three working days.

        6. That the administrative officer follow up delinquent outstanding interim advances
           brought to her attention by the cashier.

        7. That the imprest fund verifying officer report uncleared interim cash advances on the
           Monthly Checklist for Verifying Officer.

        8. That the cashier liaison, in consultation with the U.S. depository officer and the
           Office of General Counsel, determine a solution to permit the proper clearing of
           interim cash advances by the post’s regional office.

        9. That the post conduct a market basket survey in connection with its Volunteer living
           allowance survey.

        10. That the post perform a review of invoices for the last two years to ensure that all
            acquired post property has been recorded and update the property inventory database
            as required, verify that property is tagged, and conduct a complete physical inventory.

        11. That the administrative officer reconcile the inventory against receiving reports and
            requisition forms at least quarterly, and that the property officer reconcile the
            property inventory database with written documentation of changes before the
            physical inventory is conducted.

        12. That the property officer obtain custody receipts from the U.S. direct hire staff
            holding Peace Corps property in their residences.

        13. That the required staff members review, initial, and date the vehicle usage logs
           weekly and investigate unusual or questionable postings.



Final Audit Report: Peace Corps/Mozambique                                                          13
        14. That the post set up and keep maintenance records for the Peace Corps vehicles and
            that the records be reviewed periodically by the administrative officer.

        15. That the country director ensure that the post has security background certifications or
            updates on file for all staff and, on an ongoing basis, ensure that the required security
            background investigation is conducted prior to executing the personal services
            contract.

        16. That the administrative officer obtain intelligence background certifications from all
            personal services contractors and place these in their contract files.

        17. That the country director ensure that all staff are evaluated, that copies of the
            performance appraisals are given to staff members, and that the originals are placed in
            the personal services contractors’ files.

        18. That the staff record compensatory time on timesheets and that the timekeeper reflect
           compensatory time in the official time and attendance records.

        19. That supervisors periodically review their staff’s official time and attendance records
            and document the reviews.

        20. That the country director instruct post management staff to exercise care in
           performing reviews of travel vouchers, and that the administrative officer conduct a
           training for all staff on proper completion of travel vouchers.

        21. That the medical unit provide the medical supplies inventory control clerk with
           information on dispensings to Volunteers and that the medical supplies inventory
           control clerk expand the control log to include receipts and dispensings and update
           the log at least monthly.

        22. That the country director submit the log to the Office of Medical Services annually as
            required.

        23. That the medical unit ensure that specimens not include the Volunteers’ Social
            Security numbers.

        24. That the post conduct a complete physical inventory of medical supplies in
           accordance with agency policy and update the inventory records accordingly.




Final Audit Report: Peace Corps/Mozambique                                                        14
APPENDIX A
                OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective in auditing overseas posts is to determine whether the financial and administrative
operations are functioning effectively and comply with Peace Corps policies and federal
regulations. Our audit conclusions are based on information from three sources: (1) document
and data analysis, (2) interviews, and (3) direct observation. Our audits are conducted in
accordance with the government auditing standards prescribed by the Comptroller General of the
United States.

The audit of PC/Mozambique was conducted June 1 – 21, 2010, and covered fiscal years 2008,
2009, and 2010 through May 31, 2010. While at the post, we interviewed key staff including the
CD, the AO, staff responsible for administrative support, and the full-time medical officer. All
staff interviewed told us they enjoyed working at the Peace Corps and interacting with and
supporting the Volunteers.

We also interviewed Volunteers to obtain their views on the effectiveness of the post’s
administrative and financial systems in supporting them. Volunteers told us they appreciated the
interest shown by the staff in their success and well-being and confirmed they had received
effective ongoing support from the administrative unit.

As part of the audit process, we briefed the CD and AO. At headquarters, we conducted a
general briefing for regional staff.

During the course of the audit, we became aware of possible improprieties in the conduct of a
staff member and referred the matter to the OIG Investigative Unit for review.

We relied on computer-processed data from the post’s accounting system and verified such data
with hard-copy documents as required. While we did not test the system’s controls, we believe
the information generated by the system and used by us was sufficiently reliable for our audit
objective.

Our audit criteria were derived from the following sources: federal regulations, the Peace Corps
Manual, Overseas Financial Management Handbook, federal regulations, and current Peace
Corps policies and initiatives.




Final Audit Report: Peace Corps/Mozambique                                                 15
APPENDIX B
                                     LIST OF ACRONYMS
 CD                             Country Director
 AO                             Administrative Officer
 ESL                            Engineering Security Liaison
 GAO                            Government Accountability Office
 GSA                            General Services Assistant
 MS                             Peace Corps Manual Section
 MSIC                           Medical Supply Inventory Control
 OFMH                           Overseas Financial Management Handbook
 OIG                            Office of Inspector General
 OMS                            Office of Medical Services
 PC                             Peace Corps
 PCMO                           Peace Corps Medical Officer
 PSC                            Personal Services Contractor
 RSO                            Regional Security Officer
 SSN                            Social Security Number




Final Audit Report: Peace Corps/Mozambique                               16
APPENDIX C
  MANAGEMENT’S RESPONSE TO THE PRELIMINARY REPORT




Final Audit Report: Peace Corps/Mozambique      17
APPENDIX D
                                        OIG COMMENTS

Management concurred with all 24 recommendations. We closed 19 recommendations: 1, 2, 3,
4, 5, 6, 7, 11, 13, 14, 15, 16, 18, 19, 20, 21, 22, 23, 24.

The following five recommendations remain open pending confirmation from the chief
compliance officer that the following has been received:

        For recommendation 8 - documentation that a solution to permit the proper clearing of
        interim cash advances by the post’s regional office has been determined.

        For recommendation 9 - documentation that a market basket survey has been conducted
        in conjunction with the Volunteer living allowance survey.

        For recommendation 10 - documentation that the post has completed a review of invoices
        for the last two years to ensure that all acquired post property has been recorded in the
        post’s property inventory database; verified that property is tagged; and conducted a
        complete physical inventory.

        For recommendation 12 - documentation that custody receipts have been obtained from
        the U.S. direct hire staff holding Peace Corps property in their residences.

        For recommendation 17 - documentation all staff have been evaluated, that copies of the
        performance appraisals have been given to the staff members, and that the originals have
        been placed in the staff’s files.

In their response, management described actions they are taking or intend to take to address the
issues that prompted each of our recommendations. We wish to note that in closing
recommendations, we are not certifying that the region or post has taken these actions, nor that
we have reviewed their effect. Certifying compliance and verifying effectiveness are
management’s responsibilities. However, when we feel it is warranted, we may conduct a
follow-up review to confirm that action has been taken and to evaluate the impact.




Final Audit Report: Peace Corps/Mozambique                                                      28
APPENDIX E
                  AUDIT COMPLETION AND OIG CONTACT

 AUDIT COMPLETION                    Senior Auditor Steven Kaffen performed the audit of
                                     Peace Corps/Mozambique.




                                     Bradley Grubb, CPA
                                     Assistant Inspector General for Audit


 OIG CONTACT                         If you wish to comment on the quality or usefulness of
                                     this report to help us strengthen our product, please
                                     e-mail Bradley Grubb, Assistant Inspector General for
                                     Audit, at bgrubb@peacecorps.gov, or call him at (202)
                                     692-2914.




Final Audit Report: Peace Corps/Mozambique                                                    29
         REPORT FRAUD, WASTE, ABUSE,
            AND MISMANAGEMENT
  Fraud, waste, abuse, and mismanagement in government affect
everyone from Peace Corps Volunteers to agency employees to the
  general public. We actively solicit allegations of inefficient and
wasteful practices, fraud, abuse, and wrongdoing related to Peace
 Corps operations domestically or abroad. Using the OIG contact
    resources below, you can report information or allegations
          confidentially or choose to remain anonymous.




                               Call:
                   Main Office: 202.692.2900
          24-Hour Hotline: 800.233.5874 or 202.692.2915

                              Write:
                            Peace Corps
                      Attn: Inspector General
                        1111 20th St., NW
                      Washington, DC 20526

                                Or

                           Peace Corps
                     Attn: Inspector General
                        P.O. Box 57129
                   Washington, DC 20037-7129

                            Email:
                       OIG@peacecorps.gov

                           Website:
                     www.peacecorps.gov/OIG
